Audit Report




OIG-06-015
BILL AND COIN MANUFACTURING: Control Issues Identified at
the Bureau of Engraving and Printing Western Currency Facility
December 8, 2005




Office of
Inspector General
Department of the Treasury
Contents


Audit Report..................................................................................................... 2

    Findings and Recommendations ..................................................................... 3

        Management Should Develop and Implement Contingency Plans for the
        Ongoing Destruction of Mutilated Currency ................................................ 3
        Recommendation ..................................................................................... 4

        Management Should Verify Stored Mutilated Currency Prior to Destruction .... 5
        Recommendation ..................................................................................... 6


Appendices

    Appendix 1:          Management Response ........................................................... 8
    Appendix 2:          Report Distribution................................................................ 13


Abbreviations

    BEP                  Bureau of Engraving and Printing
    CCTV                 Closed Circuit Television
    OIG                  Office of Inspector General
    PSB                  Product Security Branch
    SVS                  Securities Verification Section
    WCF                  Western Currency Facility




                          BILL AND COIN MANUFACTURING: Control Issues Identified at the                     Page 1
                          Bureau of Engraving and Printing Western Currency Facility
                          (OIG-06-015)
                                                                                  Audit
OIG
The Department of the Treasury
                                                                                  Report
Office of Inspector General




                  December 8, 2005

                  Thomas A. Ferguson
                  Director
                  Bureau of Engraving and Printing

                  We are providing this interim report to bring to your immediate
                  attention two internal control issues identified during our visit to
                  the Bureau of Engraving and Printing (BEP) Western Currency
                  Facility (WCF) located in Fort Worth, Texas, during the week of
                  October 31, 2005. These issues, outlined below, were discussed
                  during a November 4, 2005, meeting with senior management.
                  This interim report does not reflect all of the results of our work,
                  which is still ongoing at WCF.

                  BEP prints billions of Federal Reserve Notes for delivery to the
                  Federal Reserve System each year. These notes are produced at
                  facilities in Washington, D.C., and Fort Worth, Texas. In October
                  2004, a WCF employee allegedly removed at least $5,000 of
                  $50 Federal Reserve Notes slated for destruction.

                  The overall objectives of our audit are to determine the internal
                  control failures at WCF that allowed a theft to be perpetrated and
                  to determine whether BEP has enhanced internal controls to
                  (1) prevent the occurrence of a similar theft and (2) provide for
                  timely detection should another theft occur.

                  The results presented in this interim report are based on
                  observations made during our visit to WCF from October 31
                  through November 4, 2005. During this visit, we conducted walk-
                  throughs of the currency production floor and observed production
                  activities from the tourist center catwalk over the currency
                  production floor and through closed circuit television (CCTV)


                  BILL AND COIN MANUFACTURING: Control Issues Identified at the       Page 2
                  Bureau of Engraving and Printing Western Currency Facility
                  (OIG-06-015)
                      cameras. We also discussed controls with WCF management and
                      supervisors and received recently issued policies and procedures,
                      system print-outs, and security incident reports. We are
                      conducting our audit, and prepared this interim report, in
                      accordance with generally accepted government auditing
                      standards.

                      In brief, we found that (1) WCF does not have a contingency plan
                      for destroying mutilated currency during periods when its
                      destruction equipment is not functioning and (2) the mutilated
                      currency currently being stored is vulnerable to theft. We make
                      two recommendations to improve accountability for mutilated
                      currency currently being stored and to prevent similar deficiencies
                      in the future.

                      In a memorandum dated December 2, 2005 (Appendix 1),
                      BEP presented actions taken and planned, which we believe
                      address the intent of our recommendations. Within a month of our
                      onsite visit that identified these concerns, BEP management
                      advised us of plans to develop a contingency plan and of the
                      destruction of the stored mutilated currency.

Findings and Recommendations
Finding 1             Management Should Develop and Implement a
                      Contingency Plan for the Ongoing Destruction of
                      Mutilated Currency

                      WCF does not have a contingency plan for destroying mutilated
                      currency1 when its destruction equipment is not functioning.
                      During our visit to WCF the week of October 31, we observed that
                      the Destruction Cage no longer contained destruction equipment.


1
 The term mutilated currency refers to spoilage created during the production process. Although
considered spoiled, some mutilated currency can be passed without nonexperts being able to detect
that it is mutilated.



                      BILL AND COIN MANUFACTURING: Control Issues Identified at the            Page 3
                      Bureau of Engraving and Printing Western Currency Facility
                      (OIG-06-015)
                        We were advised by WCF management that the old equipment had
                        been taken down on October 12, 2005.

                        As a result, mutilated currency designated for destruction
                        accumulated in the Paper Vault until destruction equipment could
                        be replaced.

                        Storing mutilated currency increases its vulnerability to theft. This
                        vulnerability is further increased when mutilated currency that has
                        been verified2 and sealed by the Securities Verification Section
                        (SVS) and Product Security Branch (PSB) is subsequently unsealed
                        and re-handled.

                        We consider it sound business practice to develop and implement a
                        contingency plan for the ongoing destruction of mutilated currency
                        when destruction equipment is not operational. As a standard of
                        internal control in the Federal government, agencies need to clearly
                        document internal control and all transactions and other significant
                        events. The documentation should appear in management
                        directives, administrative policies, or operating manuals.3

                        Recommendation

                            1. The Director should ensure that a contingency plan is
                               developed and implemented at WCF to provide for the
                               destruction of mutilated currency in a timely manner when
                               its destruction equipment is not functioning.

                               Management Comments

                               BEP concurs with this recommendation and anticipates that
                               evaluations will be completed and that a contingency plan to



2
 The term verified refers to a detailed process that includes ensuring that mutilated currency is
accurately counted and properly defaced.
3
    Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, November 1999.



                        BILL AND COIN MANUFACTURING: Control Issues Identified at the               Page 4
                        Bureau of Engraving and Printing Western Currency Facility
                        (OIG-06-015)
                   provide for the destruction of mutilated currency will be
                   prepared and approved on or about February 28, 2006.

                   OIG Response

                   We believe that the actions planned by BEP address the
                   intent of the recommendation. We plan to review the
                   contingency plan once it is approved.

Finding 2   Management Should Verify Stored Mutilated Currency
            Prior to Destruction

            In the Paper Vault, we observed mutilated currency stored on
            skids and in clear tanks and also in 11 cardboard boxes.
            WCF management explained that the boxes contained mutilated
            currency that was originally transferred to the Paper Vault in clear
            tanks after it was verified by SVS and PSB. Because of a shortage
            of clear tanks, the mutilated currency was transferred to boxes so
            that the clear tanks could be returned to the production floor.

            We subsequently watched live CCTV coverage of Printing Plant
            Workers transferring mutilated currency from clear tanks to
            cardboard boxes under the observation of PSB staff. While such
            observation provides some measure of control, we believe that
            once the mutilated currency in the clear tanks has been verified by
            SVS and PSB, it should not be re-handled without another
            verification before destruction.

            The Manager of PSB stated that skids of mutilated currency were
            moved to the Paper Vault for storage beginning on October 7,
            2005, and that the old destruction equipment was taken down on
            October 12, 2005. We noted that some of the mutilated currency
            had been identified for destruction as early as September 30,
            2005. On November 22, 2005, management advised us that the
            new equipment had been installed and that destruction would start
            as soon as testing was completed.




            BILL AND COIN MANUFACTURING: Control Issues Identified at the      Page 5
            Bureau of Engraving and Printing Western Currency Facility
            (OIG-06-015)
                       According to information provided to us by WCF management, the
                       amount of mutilated currency awaiting destruction at WCF as of
                       November 9, 2005, included the following:

                                              Type4                    Quantity
                                      Straps                           16,435.0
                                      16-subject sheets                 8,140.0
                                      32-subject sheets               605,793.5

                       Internal control serves as the first line of defense in safeguarding
                       assets. In accordance with Standards for Internal Control in the
                       Federal Government, agencies must establish physical control to
                       secure and safeguard vulnerable assets, which should be
                       periodically counted and compared to control records.

                       Recommendation

                           2. The Director should, with respect to the mutilated currency
                              that accumulated, ensure that proper accountability was
                              maintained and require that the stored mutilated currency be
                              verified before it is destroyed.

                               Management Comments

                               In its response, management stated that BEP had verified
                               36 percent of the mutilated currency straps and then
                               destroyed all of the straps by November 23, 2005. In
                               addition, BEP inspected individual skids and verified seals
                               before transferring the mutilated currency to the Destruction
                               Cage. The entire backlog of mutilated currency was
                               destroyed by December 2, 2005.

4
 Each strap consists of 100 single notes banded together at the end of the printing process. At the
beginning of the printing process, each full sheet of currency paper yields 32 notes and is referred to as
a 32-subject sheet. As the 32-subject sheets move through the printing process, the sheets are cut in
half, creating 16-subject sheets. The final phase consists of 16-subject sheets being cut into single
notes and banded together in straps.




                        BILL AND COIN MANUFACTURING: Control Issues Identified at the               Page 6
                        Bureau of Engraving and Printing Western Currency Facility
                        (OIG-06-015)
                              OIG Response

                              We believe that the actions taken by BEP address the intent
                              of the recommendation. 5

                              We plan to review documentary evidence of the verification
                              and destruction of the stored mutilated currency. We also
                              plan to review some of the actions taken to provide security
                              and accountability over stored mutilated currency, which are
                              discussed in Attachment A of BEP’s response, in further
                              detail for our overall report.


                                                     *******

                       We appreciate the courtesies and cooperation provided to our staff
                       during the onsite visit. If you wish to discuss this report, you may
                       contact me at (202) 927-6512 or Maria V. Carmona, Audit
                       Manager, at (202) 927-6345. Major contributors to this report
                       were Ms. Carmona; Susan R. Sebert, Analyst-In-Charge;
                       Horace A. Bryan, Auditor; and Gabriel Ortiz, Special Agent.




                       Donald R. Kassel
                       Director, Fiscal Service Audits




5
  We noted that BEP interpreted our recommendation to require a complete re-verification of the stored
mutilated currency, but this was not our intent. For this reason, BEP’s position that a complete
re-verification was not warranted is not being treated as a non-concurrence.



                       BILL AND COIN MANUFACTURING: Control Issues Identified at the             Page 7
                       Bureau of Engraving and Printing Western Currency Facility
                       (OIG-06-015)
Appendix 1
Management Response




BILL AND COIN MANUFACTURING: Control Issues Identified at the   Page 8
Bureau of Engraving and Printing Western Currency Facility
(OIG-06-015)
Appendix 1
Management Response




BILL AND COIN MANUFACTURING: Control Issues Identified at the   Page 9
Bureau of Engraving and Printing Western Currency Facility
(OIG-06-015)
Appendix 1
Management Response




BILL AND COIN MANUFACTURING: Control Issues Identified at the   Page 10
Bureau of Engraving and Printing Western Currency Facility
(OIG-06-015)
Appendix 1
Management Response




BILL AND COIN MANUFACTURING: Control Issues Identified at the   Page 11
Bureau of Engraving and Printing Western Currency Facility
(OIG-06-015)
Appendix 1
Management Response




BILL AND COIN MANUFACTURING: Control Issues Identified at the   Page 12
Bureau of Engraving and Printing Western Currency Facility
(OIG-06-015)
Appendix 2
Report Distribution




Department of the Treasury

Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Bureau of Engraving and Printing

Director
Associate Director (Chief Financial Officer)

Office of Management and Budget

OIG Budget Examiner




BILL AND COIN MANUFACTURING: Control Issues Identified at the   Page 13
Bureau of Engraving and Printing Western Currency Facility
(OIG-06-015)
